Office of Inspector General
    Audit Report


ARRA JOB DATA REPORTING FOR FAA
PROGRAMS—LESSONS LEARNED FOR
   IMPROVING ACCURACY AND
 TRANSPARENCY FOR FUTURE JOB
          REPORTING
      Federal Aviation Administration

       Report Number: AV-2012-056
      Date Issued: February 10, 2012
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: ARRA Job Reporting for FAA                          Date:    February 10, 2012
           Programs—Lessons Learned for Improving
           Accuracy and Transparency for Future Job
           Reporting
           Federal Aviation Administration
           Report Number AV-2012-056

  From:    Lou E. Dixon                                             Reply to
                                                                    Attn. of:   JA-1
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Assistant Secretary for Transportation Policy
           Acting Federal Aviation Administrator

           On February 17, 2009, the President signed the American Recovery and
           Reinvestment Act (ARRA) into law. ARRA provided the Department of
           Transportation (DOT) with $48 billion, of which $1.3 billion was designated to
           two Federal Aviation Administration (FAA) accounts: $1.1 billion for the Airport
           Improvement Program (AIP) and $200 million for Facilities and Equipment
           (F&E). These funds were intended for transportation infrastructure projects to
           jump-start the economy, create or save jobs, and invest in long-term economic
           growth.

           ARRA called for unprecedented levels of transparency and accountability,
           requiring fund recipients to provide periodic reports on their use of ARRA grants,
           loans, and contracts. Two ARRA sections provide job data reporting requirements:

             • Section 1201 requires grant recipients of ARRA funds in DOT programs to
               periodically report specific job information including the number of direct, on-
               project jobs created or sustained and, to the extent possible, the estimated
               indirect jobs created or sustained in the associated supplying industries, as well
               as the total increase in employment since the enactment of ARRA. The ARRA
               law stipulated that these reports are due 90 days, 180 days, 1 year, 2 years, and
               3 years after the February 17, 2009, date of passage. We have not seen
               evidence that the final two Section 1201 reports (for the 2nd- and 3rd-year
               anniversaries) have been issued.
                                                                                   2


 • Section 1512 requires each recipient of ARRA funds to report quarterly the
   estimated number of jobs created and retained by ARRA-funded projects. The
   reports are due each quarter until the recipient of ARRA funds has expended
   all funds received. While the majority of FAA ARRA funding has been spent,
   some Section 1512 reporting remains. Some large rail ARAA-funded projects
   are expected to continue for several more years, as will their Section 1512
   quarterly reports.

The Committee on Transportation and Infrastructure requested that we review job
creation and reporting associated with the ARRA funding for programs within
DOT. As agreed with Committee staff, we focused our work on jobs reported from
ARRA projects in FAA’s AIP and F&E accounts. Accordingly, our objectives
were to determine whether (1) the reporting of job data satisfies ARRA
requirements and (2) AIP and F&E projects funded under ARRA are creating and
sustaining jobs. Although our review focused on FAA, we also identified areas
where DOT can improve ARRA job reporting department-wide. Therefore, we
included those issues in our report as well.

We conducted this review between December 2009 and November 2011 in
accordance with generally accepted Government auditing standards. Exhibit A
details our scope and methodology.

RESULTS IN BRIEF
FAA met the ARRA requirement to provide reports on job data, and we found
improvements in overall reporting of job data over time. Specifically, the number
of errors that we identified in job reporting under Sections 1512 and 1201
decreased from 2009 to 2010. However, we identified a number of areas for
improvement that can serve as lessons learned for the two remaining Section 1201
reports, the quarterly 1512 reports remaining until all ARRA funds are expended,
and any future job creation efforts. In particular, we identified a number of errors,
due in part to a lack of adherence to ARRA reporting requirements. For example,
we found that 65 of our universe of 268 airport sponsors provided monthly reports
on job hours to FAA that contained errors. In addition, at airport sponsors we
contacted, the number of jobs they reported in 2009 under Section 1512 differed
significantly (as much as 96 percent) from the number of jobs we calculated from
data used in Section 1201 reporting—even though the data covered the same
period. We also identified opportunities, although not required, that FAA can take
to improve the accuracy of job reporting by increasing quality checks of airport
sponsor-submitted data.

While it is clear that ARRA-funded AIP and F&E projects have created or
sustained jobs, the full extent of this accomplishment is unclear because of errors
and inconsistencies in the collection and reporting of job information. For
                                                                                                                    3


example, we selected a statistical sample of 10 out of 306 airports and for 5 of
these 10 airports, documentation (certified payroll, invoices, or accounting system
reports) did not match job hours reported. Additionally, some airport sponsors
reported job data for the month when the work actually occurred, while others
reported job data when invoices were received and paid. These reporting
differences distorted the actual number of jobs created or sustained that were
reported for a particular time period. For example, one airport that used invoices
reported jobs with up to a 3-month delay after the jobs were actually worked. The
airport reported 2,550 job hours in January 2010, but the actual hours worked as of
that date could have been as high as 5,000 hours. Finally, while FAA reports jobs
created or sustained under ARRA-funded AIP projects, it does not report similar
job data for ARRA-funded F&E projects under Section 1201. Because FAA
expended F&E funds using procurement contracts, not grants, Section 1201
reporting is not required. However, FAA has an opportunity to increase its
transparency and accountability under ARRA by reporting the number of jobs
created under ARRA-funded F&E projects. For example, from February 2009 to
January 2010, we estimate that FAA missed the opportunity to report 41 additional
jobs 1 created or sustained through F&E funding. With the Administration’s current
efforts to pass job legislation, it will be prudent and beneficial for the Department
to apply lessons learned from ARRA to effectively measure the impact of any
future job creation efforts.

We also identified areas where DOT can clarify aspects of its department-wide job
data reports to better meet ARRA’s transparency and accountability requirements.
Specifically, DOT’s Section 1201 Report to Congress does not differentiate
whether ARRA-funded jobs were newly created or sustained (or a combination of
both) or fully disclose how DOT calculated the total number of jobs funded. 2 In
addition, the report does not include an estimate of the number of indirect jobs
created or sustained in the associated supplying industries. While DOT plans to
separate indirect jobs from total jobs in future reports, the proposed methodology
does not consider factors such as wage increases that can reduce indirect jobs—
which means DOT’s indirect jobs estimates could be overstated.

We made five recommendations to FAA and DOT to improve job reporting under
ARRA and future job creation efforts and to increase data accuracy and
transparency.




1
    This number was derived by dividing 85,236 (the number of job hours worked on F&E projects) by 2080—the
    number of hours worked by a 40-hour work week employee in a year (40 hours x 52 weeks = 2080).
2
    During a discussion with DOT after the Section 1201 Report was released, DOT stated that (1) the jobs in the
    Section 1201 Report represent a combination of created and sustained jobs and (2) total jobs were calculated using
    the President’s Council of Economic Advisers methodology of dividing total dollar outlays by $92,000.
                                                                                                                     4


FAA HAS MET REQUIREMENTS TO DEVELOP REPORTS ON
JOBS, BUT MORE CAN BE DONE TO REDUCE ERRORS
While FAA has met the ARRA requirement to provide reports on job data, the
AIP job data in the ARRA reports provided to Congress, the Recovery
Accountability and Transparency Board 3 (Recovery Board), and the public
contained errors. Although the number of errors declined in 2010 from 2009, we
still identified reporting errors in FAA’s portion of DOT’s Section 1201 Reports to
Congress, in airport sponsors’ monthly reports to FAA, and Section 1512 Reports
to the Recovery Board. The reporting issues continued to occur, in part, because
FAA did not correct errors in the data it submitted for the DOT Section 1201
reports and did not routinely compare Sections 1512 and 1201 job data to identify
potential discrepancies. DOT is scheduled to release its final Section 1201 reports
on jobs over the next few months. Therefore, FAA has an opportunity to improve
or correct errors in the data it submits for the DOT Section 1201 report.

FAA Did Not Correct Errors in Section 1201 Reporting
We identified errors in DOT’s Section 1201 Report that FAA did not correct prior
to inclusion in the report. For each month, the cumulative total number of job
hours reported should equal or exceed the hours reported in the previous month.
However, we found 65 of 268 airport sponsors (24 percent) reported fewer hours
in a month than the previous month for the period July 2009 to April 2010.

Specifically, in DOT’s September 2009 Section 1201 Report, 10 of the 65 airport
sponsors reported fewer hours in August 2009 than in July 2009, indicating that an
error occurred at some point in reporting. For example:

    • One airport reported 20,000 hours in July 2009 and 3,700 in August 2009.

    • A second airport reported 4,200 hours in July 2009 and 3,154 hours in August
      2009.

    • A third airport reported 3,313 hours in July 2009 and 258 hours in August
      2009.

In DOT’s May 2010 Section 1201 Report, 5 of the 65 airport sponsors reported
fewer hours in February 2010 than in January 2010. For example:



3
    The Recovery Accountability and Transparency Board was created by the American Recovery and Reinvestment
    Act of 2009 with two goals: (1) to provide transparency in relation to the use of Recovery-related funds and (2) to
    prevent and detect fraud, waste, and mismanagement. Twelve Inspectors General from various Federal agencies
    serve on the board. The Recovery Board issues quarterly and annual reports to the President and Congress, and if
    necessary, “flash reports” on matters that require immediate attention.
                                                                                                                      5


    • One airport reported 8,232 hours in January 2010 and 4,916 hours in February
      2010. The airport did not properly report cumulative hours in January 2010.

    • A second airport reported 37,905 hours in January 2010 and 14,675 hours in
      February 2010. This airport had incorrectly included indirect job hours in the
      January data. FAA asked airports to report only direct job hours.

    • A third airport reported 165,468 hours in January 2010 and 64,057 hours in
      February 2010. This airport had made a data entry error in the January report
      that overstated the data by more than 100,000 job hours, or the equivalent of
      48 full-time jobs. 4

According to airport officials, in each of these examples, the January data reported
were incorrect, but FAA did not correct the errors before submitting them in
DOT’s May 2010 Section 1201 Report to Congress.

FAA Did Not Identify Errors in Section 1512 Job Reporting
Our review found significant discrepancies in the number of jobs reported by
recipients under Section 1512 in 2009. Under Section 1512, Office of
Management and Budget (OMB) guidance requires Federal agencies to perform a
limited data quality review of the information submitted by ARRA grant recipients
and notify recipients if two key data problems are found: material omissions and
significant reporting errors. Federal agencies are required to do so before reports
are made available on the ARRA Web site.

To evaluate the accuracy of job data reported under Section 1512, we compared
(1) the number of jobs reported under Section 1512 to (2) jobs we calculated using
monthly data used in Section 1201 reporting 5 for 20 airport sponsors reporting the
most jobs in 2009. Because Section 1512 data are reported in terms of Full Time
Equivalents (FTE) and Section 1201 monthly data are reported in job hours (not
FTEs), we converted the Section 1201 monthly data into FTEs to make the
comparison. Exhibit C of this report contains additional details on our process for
comparing Section 1512 and 1201 data.

Our comparison identified discrepancies between the numbers of jobs reported.
Specifically, for 2009, we found discrepancies existed between Section 1512 and
Section 1201 data for 17 of the 20 airport sponsors (85 percent). For 10 of those
airport sponsors, the discrepancies exceeded 50 percent. These discrepancies
indicate the number of jobs reported under Section 1512 in 2009 may be
overstated, miscalculated, or simply entered in error. Airport officials provided a
4
    This number was derived by dividing 100,000 hours by 2,080 hours—the number of hours worked by a 40-hour
    week employee in a year (40 hours x 52 weeks = 2080).
5
    FAA uses the job data that airport sponsors report monthly to calculate the jobs in the DOT Section 1201 Report. For
    this reason, we refer to the monthly data as “Section 1201 data” in this report.
                                                                                                                        6


number of explanations for the discrepancies, including confusion in the early
reporting periods about how to report job numbers, use of a “head count” rather
than number of hours worked as a basis for reporting, and data entry errors.

FAA currently does not routinely compare Section 1512 and Section 1201 job data
to identify potential errors in airport sponsor Section 1512 and 1201 reporting.
Instead, FAA performs a validation and outlier identification review. However,
using this methodology, FAA identified potential errors in only 11 of the
17 airport sponsors’ discrepancies that we identified by comparing the 2 data sets.

For 2010, the number of airports with discrepancies between Section 1512 and
Section 1201 job data decreased to five. Improvements may have occurred, in part,
because OMB updated its guidance 6 and airport sponsors gained more experience
in reporting job data. Exhibit D provides more information on our comparison
between 2009 and 2010 jobs data.

DOT ARRA FUNDS HAVE CREATED JOBS, BUT THE FULL
EXTENT IS UNCLEAR DUE TO REPORTING ERRORS AND
OMISSIONS
Because of errors we identified in job data, the full extent to which ARRA-funded
AIP and F&E projects are creating or sustaining jobs is unclear. Specifically, we
identified three factors that contributed to a lack of job data reliability:
(1) documentation did not match job hours reported, (2) data reporting methods
among airport sponsors were inconsistent, and (3) FAA did not report job data for
its F&E projects.

Documentation Did Not Match AIP Job Hours Reported
At 5 of the 10 airports where we obtained contractors’ certified payroll data
totaling $54 million, supporting documentation did not match the job hours
reported as of December 31, 2009. 7 For example:

    • One airport could not provide adequate documents to support 3,166 of
      14,009 job hours reported (23 percent unsupported). Similarly, a second could
      not support 743 of 8,280 job hours reported (9 percent unsupported).
      Discussions with these airports’ sponsors and contractors revealed the
      discrepancies were due to hours worked by salaried employees
      (e.g., supervisors, managers, and administrative staff), which do not require
      certified payroll records. However, the contractor provided estimates of hours
6
    OMB modified its guidance to require recipients to report job estimates on a quarterly, rather than cumulative, basis.
    Additionally, it no longer requires recipients to determine if a job was created or retained but to report only whether
    jobs are funded by ARRA dollars.
7
    We reviewed the data airports reported monthly to FAA that are used in Section 1201 reporting. Refer to Exhibit E
    for more information on our review of the 10 airports.
                                                                                 7


   worked but could not provide documentation to support the hours worked by
   these employees because they do not maintain formal records.

 • One airport could not provide adequate documents to support 1,939 of
   41,824 cumulative work hours reported (5 percent unsupported) for paving and
   electrical work.

 • One airport had support for 18,150 job hours, but only reported
   16,785 (8 percent not reported). Discussions with the airport sponsor revealed
   that discrepancies occurred because contractors frequently submitted late
   payroll records used by the airport to obtain its job data. Without complete
   payroll records, the airport sponsor consistently underreported its job data.

 • One airport that received two ARRA grants had support for 12,883 job hours,
   but only reported 4,564 (65 percent not reported). The discrepancy for one
   grant was because the airport sponsor did not properly accumulate work hours.
   The difference for the other grant was because the airport sponsor relied on a
   manufacturer’s estimate of the number of job hours required to build an
   Aircraft Rescue and Firefighting vehicle. During the audit, the manufacturer
   provided documentation to us with the actual hours required for the project,
   which differed from the estimate.

Some Airports Did Not Follow FAA Guidance To Report Jobs Based
on Valid Invoices
We found disparities in the timing of job reporting practices among the airports in
our sample. Under Section 1201, FAA requires airport sponsors to report direct
job hours as invoices are received from the contractor and approved for payment
by the airport sponsor. Six of the 10 airports in our sample complied with this
requirement and waited to report their direct job hours. This process can take a
month or more after the work actually took place. However, the other four airports
in our sample reported direct job hours as the work occurred.

While Not Required, FAA Could Report Job Data for ARRA-Funded
F&E Projects Under Section 1201
FAA does not include the number of direct jobs for each of its F&E projects in the
Section 1201 Report to Congress. Grant recipients reporting under Section 1201
are required to, among other things, report the number of direct, on-project jobs
created or sustained by the project funded with ARRA dollars. However, for the
$200 million designated for ARRA-funded F&E projects, FAA used procurement
contracts, which is the Agency’s usual practice, for air traffic equipment and
construction. Since these contractors are not grant recipients, Section 1201
reporting requirements do not apply. Although FAA is not required to report these
data, the Agency is not prohibited from doing so.
                                                                                  8


In fact, FAA’s F&E contractors are already reporting project job data and other
data required under ARRA Section 1512 using an online form. This is because,
unlike Section 1201, Section 1512 provides a more broad-based definition of a
recipient: “any entity that receives recovery funds directly from the Federal
Government, including recovery funds received through grants, loans, or contracts
[emphasis added] other than an individual.”

Although the Section 1512 F&E job data are publicly available, DOT’s Section
1201 reports are submitted to Congress to provide specific insight into the use of
DOT’s ARRA funding. As stated in the report: “Congress has insisted upon a high
level of accountability in the expenditure of funds under the Recovery Act and
[the Section 1201 reports] ensures that the recipients of transportation funding
provide transparency and accountability for their Federal funds.” Thus, DOT has
an opportunity to increase the transparency and accountability of funding reported
under ARRA by reporting the F&E jobs in the Section 1201 report.

Additionally, F&E contractors are already reporting monthly job data to FAA
similar to the monthly data that airports report to FAA that are used in Section
1201 reports. FAA has the F&E job data available, but it does not publish these
data.

Also, the Section 1512 data differ from how the job data are reported under
Section 1201 and do not allow decision makers or the general public to make an
easy comparison between the two. Reporting Section 1512 data alongside Section
1201 data in the same report would allow decision makers and the public to have a
complete picture of the effect of ARRA funding on job creation.

 • Section 1512 data are reported in terms of full time equivalent jobs worked in a
   quarter of the year while Section 1201 data are reported as job years, which is
   the number of full time jobs in a year.

 • Section 1512 job data are reported each calendar quarter and include only those
   jobs created or sustained in the reporting quarter. Section 1201 job data are the
   cumulative number of jobs created or sustained by a project from its inception
   and are reported periodically (i.e., 90 days, 180 days, 1 year, 2 years, and
   3 years after the date of the passage of the ARRA law on February 17, 2009).

DOT’S 1201 REPORTS COULD BETTER MEET ARRA’S
TRANSPARENCY REQUIREMENTS
We identified three areas where DOT can clarify aspects of its department-wide
job data reports to better meet ARRA’s transparency and accountability
requirements.
                                                                                                                  9


First, while DOT reports the total number of on-project, ARRA-funded jobs, 8 it
does not specify how it calculated this total 9 or whether the jobs were created,
sustained, or a combination of both. DOT could better meet ARRA’s transparency
requirements by explaining its reporting method in the Section 1201 report.

Second, for the past 2 years DOT has been working to develop a consistent
methodology to meet the ARRA requirement to report, to the extent possible, the
number of indirect jobs created or sustained in the associated supplying industries
(e.g., concrete and steel companies providing materials to construct airport
runways). While DOT’s effort is a good step, we are concerned about its pace and
execution. DOT’s May 2010 report 10 did not include this information, and DOT
has yet to release its next 1201 report. Further, DOT’s proposed methodology does
not consider factors such as wage increases, which can reduce the amount of jobs
that can be created or sustained from a given amount of money. Therefore, the
extent to which ARRA funding resulted in indirect jobs for DOT projects remains
unknown and could be overstated in any future reports.

Finally, DOT’s Section 1201 Report does not disclose that various DOT agencies
use different methods and timing to report their ARRA jobs, which hinders the
accuracy of DOT’s job estimates. For example, FAA instructed airports to report
direct jobs based on valid invoices, while the Federal Transit Administration
instructed recipients to report direct jobs regardless of whether they are invoiced.
Further, as we reported in November 2009, 11 the Office of the Secretary of
Transportation intends to report both indirect and total jobs as created on the date
recipients are reimbursed for expenditures on the projects generating those jobs.
Since expenditures may not be reimbursed until well after a project has started,
this could result in a major lag between when new jobs are actually created and
when they are reported, creating ambiguity in the estimates.

CONCLUSION
Complying with ARRA requirements on an expedited timeline and with
unprecedented levels of transparency has been a difficult task for Federal agencies
and recipients. While job reporting has improved over time, it is incumbent upon
the Agency and Department to consider additional improvements that will
8
     DOT defines on-project jobs as direct, onsite jobs. Direct jobs include onsite employment and other employees
     directly working on the project, such as managers and engineers.
9
     According to DOT officials, the total jobs were calculated using the President’s Council of Economic Advisers
     (CEA) methodology of dividing total dollar outlays by $92,000.
10
     In its May 2010 Section 1201 Report (which includes data from February 17, 2009, through January 31, 2010), DOT
     reported that 95,000 total jobs (i.e., direct, indirect, and induced jobs) were created or sustained by ARRA
     investments in transportation. Induced jobs are jobs created when employees spend their increased incomes on
     consumer goods and services.
11
     OIG Report Number MH-2010-024, “DOT’s Implementation of the American Recovery and Reinvestment Act:
     Continued Management Attention Is Needed To Address Oversight Vulnerabilities,” November 30, 2009. OIG
     reports are available on our Web site at http://www.oig.dot.gov.
                                                                                  10


accurately reflect the success of the program as well as inform future job creation
efforts. This is particularly important because DOT is scheduled to release its final
Section 1201 report on jobs over the next few months. This final report will be
used as a basis to judge the overall success of ARRA in terms of creating and
sustaining jobs and could be used for any future job creation efforts similar to
ARRA.

RECOMMENDATIONS
To better meet ARRA requirements of accountability and transparency, we
recommend that the Acting FAA Administrator:

 Require the Associate Administrator for Airports to:

   1. Develop a process for new data that compares month to month cumulative
      job data reported by airport sponsors and contact sponsors to resolve
      discrepancies when the current month shows fewer hours than the prior
      month.

   2. Review and resolve discrepancies between Section 1512 job data reported
      quarterly to the Recovery Board and job data reported monthly to FAA for
      the same 3-month period by contacting airport sponsors when discrepancies
      occur to determine if an error in reporting took place.

   3. Issue an advisory notifying airport sponsors that they are to count jobs
      created or sustained based on valid invoices.

 Require the Chief Operating Officer, Air Traffic Organization to:

   4. Submit to the Department job data from ARRA-funded Facilities and
      Equipment projects for consideration in its Section 1201 reports to
      Congress.

To better meet ARRA requirements of accountability and transparency
department-wide, we recommend that the Assistant Secretary for Transportation
Policy:

   5. Separately report indirect jobs in its upcoming ARRA Section 1201 Reports
      and address data limitations in its job reports to increase ARRA
      transparency and accountability.
                                                                                   11


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided the Agency our draft report on November 21, 2011, and received
DOT’s and FAA’s formal response on December 16, 2011, and have included it as
an appendix to this report. In its response, FAA concurred with recommendation 3
and partially concurred with recommendations 1, 2, and 4. DOT concurred with its
single recommendation (recommendation 5). FAA’s planned actions for
recommendations 3 and 4 and DOT’s planned actions for recommendation 5 are
responsive, and we consider these recommendations resolved but open pending
completion of planned actions.

For recommendations 1 and 2, FAA stated that further evaluation of job data
submitted by grant recipients would be of limited utility because all ARRA grant
projects at airports are 100 percent completed and 99 percent of grant funds have
been expended, resulting in few additional jobs being reported by the recipients.
Accordingly, FAA is requesting that these recommendations be closed. We
disagree that further evaluation of job data would be of limited utility regardless of
whether projects have been completed and funds expended. FAA has collected
ARRA job data since 2009, including data that has yet to be reported out. For
example, ARRA requires airport sponsors to report to FAA no later than
February 17, 2012, on the total jobs created for their projects since ARRA was
enacted. There is no certainty that these numbers are reliable without further
evaluation. February 2012 is the final month that airport sponsors are required to
submit Section 1201 job data, and FAA has ample time to ensure that these data
are complete and reliable before DOT submits its final Section 1201 report to
Congress later this year. Given the importance of accurate job reporting as a basis
for assessing ARRA’s impact and informing future job creation efforts, we request
that FAA reconsider its position and implement the recommendations for the final
DOT Section 1201 report due this year. Also, we request that FAA review and
resolve discrepancies with any remaining section 1512 reports because these
reports could also benefit from additional scrutiny to ensure accuracy.

For recommendation 4, FAA partially concurred, stating that while ARRA F&E
project information is not required under 1201 reporting, the Agency would
provide this information to DOT for consideration regarding whether it should be
included in future 1201 reports. Therefore, we consider this recommendation
resolved but open until FAA completes its planned action. We encourage DOT to
take this opportunity to increase the transparency and accountability of funding
reported under ARRA by including F&E jobs in the Section 1201 report.

In addition, FAA took issue with some of our methodologies and conclusions, in
particular our comparison of the 1512 and 1201 data sets and findings on job data
errors. However, in comparing 1201 and 1512 data we used the same methodology
                                                                                                                 12


FAA used to validate jobs data for ARRA-funded F&E projects. We also disagree
with FAA’s statement that errors we found in jobs data were “minimal.”
Specifically, our data for 20 airport sponsors reporting jobs data under Section
1512 show an overall error rate of 46 percent in 2009 and 42 percent for January
to March 2010. While the overall error rate for Section 1201 data at 10 airports
reviewed was much less (6 percent), the percentage of errors ranged from
5 percent to 65 percent at the airports where errors occurred. We also found that
the largest numbers of jobs not supported or not reported occurred at smaller
airports, which made up most of the airport sponsors funded under ARRA (see
exhibit D for detailed data).

Finally, DOT disagreed with our statements on indirect jobs, stating that it
completed its estimates of indirect jobs and total employment and made them
available to the OIG. DOT also stated that, contrary to our report, these estimates
do take into account wage increases since its total employment estimate is based
on Council of Economic Advisers guidelines, which include structural
macroeconomic models of job creation. However, DOT's estimate of total
employment provided to us consists of a single number of 95,000 total jobs and
does not break out indirect jobs separately. While DOT will report indirect jobs
separately in the upcoming 1201 report (in accordance with ARRA and our
recommendation 5), it will use a different method than what it used for total jobs.
Therefore, we remain concerned that DOT's planned method will not consider
factors such as wage increases and could overstate the number of indirect jobs. 12

ACTIONS REQUIRED
For recommendation 1 and 2, we are requesting that FAA reconsider its position
and, in accordance with Department of Transportation Order 8000.1C, provide us
this additional information within 30 days. FAA’s planned actions for
recommendations 3 and 4 and DOT’s planned actions for recommendation 5 are
responsive, and we consider these recommendations resolved but open pending
completion of the planned actions.

We appreciate the courtesies and cooperation of DOT, FAA, and airport
representatives during this audit. If you have any questions concerning this report,
please contact me at (202) 366-1427 or Scott Macey, Program Director, at (415)
744-3090.




12
     In 2010, DOT provided us with its methodology for calculating estimates of indirect jobs, but estimates from the
     methodology do not take wage increases into account.
                                                                                   13


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from December 2009 through November
2011. We conducted this audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

To evaluate whether job data satisfied ARRA requirements, we selected the
 airports that reported the highest job hours under Section 1512 from
February 17, 2009, through December 31, 2009. The airports were drawn from
reports publicly available on www.recovery.gov. To evaluate the accuracy of job
data reported under Section 1512, we compared the number of jobs reported to
Section 1201 for the 20 airports in our review for the same period of time. Since
Section 1512 and 1201 job data are reported differently, we converted the job
hours reported monthly used for Section 1201 reporting to the same format as data
reported under Section 1512.

To assess whether AIP and F&E projects funded under ARRA are creating and
sustaining jobs, we reviewed supporting documentation including but not limited
to: certified payroll, invoices, and accounting system reports to ensure the support
matched the job hours reported for Sections 1201 and 1512 in the airports we
reviewed.

Specifically, for AIP, the OIG statistician developed a statistical sample of airports
that received ARRA funding. This methodology resulted in a sample of 10 airports
out of 306 airports which resulted in the selection of 10 out of 268 airport sponsors
that reported job hours for inclusion in DOT’s Section 1201 Report, dated
May 7, 2010 (which includes data from February 17, 2009, through
January 31, 2010).

For F&E projects, the OIG statistician developed a simple random sample of 10
out of 41 contracts with award amounts over $1 million as of June 2010. This
methodology resulted in a sample of 10 projects with a value of $35 million from
the universe of 368 projects totaling $146 million.

We interviewed FAA Headquarters AIP and F&E officials, Airport District Office
personnel, airport sponsors, contractors, and subcontractors to find out their roles
and responsibilities in the job data collection, validation, and reporting processes.
Exhibit B lists the entities we contacted or visited during our review. We also
examined the requirements of Section 1201 and 1512 as it pertains to Public Law
111-5 “American Recovery and Reinvestment Act of 2009” and guidance from


E xh i b it A. S co p e an d M et h o d o l o g y
                                                                             14


DOT and OMB. We reviewed FAA policies and procedures on ARRA reporting.
We analyzed airport, contractor, and subcontractor documentation to validate job
hours incurred on ARRA-funded projects. We reviewed Section 1201 and 1512
job data reports to support the accuracy of number of jobs being reported. We
evaluated FAA job data records as another means to validate and reconcile job
hours incurred on projects.




E xh i b it A. S co p e an d M et h o d o l o g y
                                                                      15


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
Department of Transportation
         Office of the Secretary, U.S. Department of Transportation

FAA
         FAA Headquarters, Washington, DC
         Airport District Office, Burlingame, California
         Airport District Office, Dulles, Virginia

Airport Sponsors for Airport Improvement Projects

        Alaska Department of Transportation and Public Facilities
        Allegheny County Airport Authority, Pennsylvania
        Boca Raton Airport Authority, Florida
        Charlotte County Airport, Florida
        City of Bartlesville, Oklahoma
        City of Baton Rouge, Louisiana
        City of Carson City, Nevada
        City of Driggs, Idaho
        City of Dunkirk, New York
        City of Laredo, Texas
        City of Monroe, Louisiana
        City of Okmulgee, Oklahoma
        City of Stillwater, Oklahoma
        City of Wilbur, Washington
        Coos County Airport District, Oregon
        County and City of Spokane, Washington
        County of Buncombe and City of Asheville, North Carolina
        County of Hancock, Maine
        Illinois Department of Transportation
        Indianapolis Airport Authority
        Las Cruces International Airport, New Mexico
        Massachusetts Port Authority
        Metropolitan Washington Airport Authority, Virginia
        Northwest Arkansas Regional Airport Authority
        Owensboro-Daviess County, Kentucky
        Rhode Island Airport Corporation
        Sarasota Manatee Airport Authority, Florida
        Texas Department of Transportation
        Town of Morristown, New Jersey
        Tupelo Airport Authority, Mississippi


E xh i b it B . O rg an iz at i o n s Vi sit ed o r Cont a ct e d
                                                                    16


Contractors for Facilities and Equipment Projects
         Barnstable Airport Commission, Massachusetts
         CCI Group, LLC, Georgia
         Daniel J Keating Co, Pennsylvania
         Eaton Corporation, Ohio
         Jacobs Engineering, California
         Power Paragon Inc., California
         Scalfo Electric, New Jersey




E xh i b it B . O rg an iz at i o n s Vi sit ed o r Cont a ct e d
                                                                                             17


EXHIBIT C. COMPARISON OF SECTION 1512 TO SECTION 1201
JOB DATA
Under Section 1512, recipients of ARRA funding are required to determine the
number of hours FTEs worked each quarter of the year. OMB guidance
established the computation for recipients of ARRA funding to divide the number
of hours worked during a quarter by the number of hours in a full time schedule in
the quarter. For example, if a full time schedule is 2080 hours per year (52 weeks
per year times 40 hours per week), then the full time hours in a quarter are 520
(2,080 hours divided by 4 quarters per year). The formula for reporting is
represented as:

             Total Number of Hours Worked and Funded
             By Recovery Act within Reporting Quarter
             _________________________________        =                    FTE

             Quarterly Hours in a Full-Time Schedule

           Source: OMB “Updated Guidance on the American Recovery and Reinvestment
                   Act – Data Quality, Non Reporting Recipients, and Reporting of Job
                   Estimates.” December 18, 2009

To determine jobs reported in its periodic Section 1201 Reports, the Department
used data reported monthly by airport sponsors. The Department requires
recipients to report monthly on the cumulative number of job hours worked on the
project. We refer to these data as the “Section 1201 data” in our report.

Because Section 1512 data are reported in terms of FTEs, in order to compare the
Section 1201 and Section 1512 data, we converted Section 1201 job hours
reported monthly into FTEs.

We also used the same time periods between Section 1512 and Section 1201
monthly data. For example, in 2009, there were two reporting periods for Section
1512 data. The first reporting period included jobs funded between
February 17, 2009, through September 30, 2009. The second reporting period
included jobs funded from October 1 through December 31, 2009. We used the
Section 1201 monthly data that included jobs funded over the same time period
(from February through December 2009) to calculate FTEs and make our
comparison to Section 1512 data.

The comparison between Section 1512 data and the Section 1201 monthly data is
possible because the Section 1201 monthly data consist of job hours, and job hours
are used to calculate Section 1512 job data. Under OMB’s formula for Section
1512 reporting, recipients of ARRA funding calculate FTEs by dividing: (1) job
hours worked in a quarter of the year by (2) the number of hours in a full time


E xh i b it C . Co m p a r iso n o f S e ct i o n 1 51 2 t o S ect io n 12 0 1 Jo b D at a
                                                                                                                        18


    schedule for the quarter, which equals 520 hours (for a person working a 40-hour
    week schedule). 13 From the Section 1201 monthly data, we used the job hours
    reported to DOT in 2009 and divided by 520 for our calculation of FTEs.

    Table C-1 below illustrates our comparison for two of the airports we reviewed. In
    the table, Column B shows that the first airport reported 92 FTEs under Section
    1512 in 2009. This is the sum of the FTEs reported in the two reporting periods of
    2009—covering jobs reported from February to December 2009. Column C shows
    the total 15,032 job hours (Section 1201 hours) the airport reported as worked in
    2009—from February through December 2009. Column D shows the 29 FTEs that
    we calculated for 2009 using the OMB formula of dividing job hours worked by
    520 (15,032 / 520 = 29). We contacted the airport to discuss the discrepancy
    between the Section 1512 FTEs it reported (92) and the FTEs we calculated (29)
    using Section 1201 monthly data. The airport made an error in reporting because it
    incorrectly used the OMB formula to calculate the FTEs. 14

    The second airport in the table reported 202 FTEs under Section 1512 in 2009
    (column B), which closely matched the 201 FTEs that we calculated (using
    Section 1201 monthly data (Column D). We considered this a minor discrepancy
    and not indicative of an error.

    Table C-1: Comparison of Section 1512 and Section 1201 FTE Jobs
Airport              Section              Section 1201          Section 1201           Difference            Indication
                     1512 Total           total job             FTEs                   between               of a
                     FTEs                 hours                 Calculated             Sect 1512             Potential
                     reported in          reported in           for 2009               and 1201              Error in
                     2009                 2009                                         FTEs                  Reporting
                                                                (Column C
                                                                divided by             (Column B -
                                                                520)                   Column D)


(Column A)           (Column B)           (Column C)            (Column D)             (Column E)            (Column F)
1                           92                  15,032                  29                     63                  Yes
2                          202               104,654                   201                      1                   No




    13
         The 520 hours is calculated in this manner: (40 hours per week x 52 weeks per year) divided by 4 quarters in a year
         equals 520 hours per quarter.
    14
         The airport used “250” instead of “520” as the divisor in the OMB formula to calculate FTEs in the third quarter of
         2009.


    E xh i b it C . Co m p a r iso n o f S e ct i o n 1 51 2 t o S ect io n 12 0 1 Jo b D at a
                                                                                                               19


EXHIBIT D. REVIEW OF JOB DATA TO DETERMINE
COMPLIANCE WITH ARRA REPORTING
To evaluate the accuracy of job data reported under Section 1512, we compared
the number of jobs reported to Section 1201 for 20 airport sponsors and identified
discrepancies between the numbers of jobs reported. We found differences
between job data reported under Section 1512 and Section 1201 for 10 airport
sponsors were 50 percent or greater. Overall, discrepancies existed between
Section 1512 and Section 1201 data for 17 of the 20 airports (85 percent). Table
D-1 shows our comparison of the job data from ARRA’s inception in February
2009 through December 2009.

             Table D-1. Comparison of Job Data as of December 2009
                Sec 1512        Sec 1201
   Airport     FTEs Thru       FTEs Thru       Difference     Percentage        Rationale for Discrepancy 3
   Sponsor     Dec 20091        Dec 20092       in FTE        Difference
      1                252             208             44            17%      Formulation Error
      2                217             161             56            26%      QT 3 Reported non-ARRA hours 4
      3                202               11           191            95%      Data Input Error
      4                202             201              1             0%                      N/A
      5                163               19           144            88%      QT 3Counted number of people
      6                151               38           113            75%      QT 3Counted number of people
                                                                              QT 3 Counted number of people,
      7                 147               69            78            53%
                                                                              QT 4 data entry error 5
                                                                              QT 3 Lack of guidance, QT 4
      8                 143               41           102            71%
                                                                              FAA had incorrect data
                                                                              QT 4 Incorrect Methodology for
      9                 139             105             34            24%
                                                                              reported FTEs
                                                                              Incorrect Methodology for
     10                 110               41            69              63
                                                                              Reported FTEs
     11                 108               80            28            26%     Sponsor made reporting error
     12                 101               86            15            15%     Incorrect formula used
                                                                              Failure to accumulate job hours
     13                 100                4            96            96%
                                                                              and data entry error
                                                                              QT 3 reported full time jobs
     14                  95               17            78            82%
                                                                              instead of FTE’s for 1512
     15                  94               63            31            33%     QT 3 Counted number of people
     16                  92               29            63            68%     Incorrect formula used in QT3
     17                  81               80             1             1%                     N/A
                                                                              Reported an estimate instead of
     18                  79               64            15            19%
                                                                              FTEs
     19                   78                 32              46            59%QT 3 Counted number of people
     20                   76                 75                1            1%                N/A
 Source: OIG analysis
 Notes:
         1
           Job data from Section 1512 Reports in 9/30/09 and 12/31/09 from www.recovery.gov.
         2
           Section 1201 job data from FAA converted to FTEs by dividing cumulative job hours on 12/31/09 by 520
         3
           We took exception to discrepancies when the difference between jobs reported under Section 1201 and 1512
          exceeded two FTEs and the airport sponsor did not provide a reasonable explanation.
         4
           QT 3 represents reporting at the end of the third quarter of 2009, which ended September 30, 2009.
           Because this was the first reporting period, it covered February 17 to September 30, 2009.
         5
           QT 4 represents reporting in the fourth quarter of 2009, which was from October 1 to December 31, 2009.




E xh i b it D . Rev iew o f Jo b D at a T o Det e rm i ne Co mpl i anc e W it h AR R A
Rep or t in g
                                                                                                                20


Table D-2 shows that we compared Section 1512 and Section 1201 job data from
January 1, 2010, through March 31, 2010, and found discrepancies decreased. The
number of airports with differences of 50 percent or more decreased from 10 to
5 airports. Nevertheless, the differences between job data reported under Section
1512 and Section 1201 for 4 of these 5 airports was 95 percent or greater.

              Table D-2. Comparison of January–March 2010 Job Data
                 Section 1512       Section 1201
    Airport       FTE’s Thru         FTE’s Thru       Difference    Percentage
    Sponsor     Jan - Mar 20101    Jan - Mar 20102     in FTE’s     Difference      Rationale for Discrepancy
       1               125               125               0           0%                      N/A
       2               17                 3               14           82%                    N/A3
       3               20                 0               20          100%                     N/A
       4                8                 8                0           0%                      N/A
                 Waived due to
       5                                  0                0           N/A                     N/A
                    flooding
       6               34                 39               5           15%                    N/A3
       7               20                 20               0           0%                      N/A
       8                1                 13              12          Note 5                  N/A3
       9               105                5               100          95%        Calculation Error with 1512
       10               3                 1                2           67%                    N/A3,4
       11              11                 11               0           0%                      N/A
       12              52                 1               51           98%        Calculation Error with 1512
                                                                                  Failure to Accumulate 1201
       13              0                  4                4
                                                                      Note 5      Hours
      14                4                    4            0             0%                     N/A
      15                0                    0            0             0%                     N/A
      16                1                    1            0             0%                     N/A
      17                11                   6            5            45%        Input Error
      18                41                   0            41          100%        Calculation Error with 1512
      19                26                   26           0             0%                     N/A
      20                22                   24           2             8%                     N/A
    Source: OIG analysis
    Notes:
        1
           Job data from Section 1512 Reports on 3/31/10 from www.recovery.gov. Numbers rounded to nearest
            whole number.
        2
          Section 1201 job data from FAA converted to FTEs by dividing job hours from 1/1/10 - 3/31/10 by 520.
        3
           We did not consider this a discrepancy because of a timing difference between when Section 1201 and
            Section 1512 data are reported by these airport sponsors. The sponsors followed FAA guidance to
            recognize job hours when invoiced for monthly reporting used for job reporting under Section 1201 and
            reported Section 1512 jobs under OMB guidance as quarterly estimates of jobs created and retained.
        4
           The difference between Section 1512 and Section 1201 data was attributable, for the most part, due to the
            rounding of data by the airport sponsor.
        5
          Percentage difference greater than 100 percent.




E xh i b it D . Rev iew o f Jo b D at a T o Det e rm i ne Co mpl i anc e W it h AR R A
Rep or t in g
                                                                                                                   21


EXHIBIT E. VALIDATION OF JOB HOURS REPORTED ON ARRA
AWARDED GRANTS AND CONTRACTS SAMPLED

We reviewed a sample of 10 AIP grants and 10 F&E contracts and validated job
hours reported to supporting documentation including but not limited to certified
payrolls, invoices, and accounting system reports to ensure AIP and F&E projects
funded under ARRA were creating or sustaining jobs.

Table E-1 shows the 10 airports reviewed in our statistical sample to determine if
AIP job hours were supported. We found that of the 245,472 job hours for
$53,982,678 in grants, approximately 6 percent were unsupported or unreported.
The majority of job hours were supported. However, at the airports where jobs
were not supported or not reported, the percentage of these jobs ranged from
5 percent to 65 percent. Also, the largest numbers of jobs not supported or not
reported occurred at smaller airports (such as small, general aviation, and non hub
airports 15), which make up the majority of the airport sponsors funded under
ARRA. 16 We reviewed job hours reported as of December 31, 2009.

           Table E-1. Comparison of Job Hours Reported and Supported
                          Grant               Job Hour            Job Hours                  Job Hours
        Airport           Award               Reported           Not Supported              Not Reported
           1             $3,453,275              14,009              3,166                       -
           2              2,834,501              15,344                -                         -
           3              5,707,871               8,280               743                        -
           4             14,900,000              83,750                -                         -
           5                569,354               1,891                -                         -
           6              9,600,332              38,066                -                         -
           7              3,086,000              16,785                -                       1,365
           8              8,536,160              41,824              1,939                       -
           9              2,968,530               4,564                -                       8,319
          10              2,326,655              20,959                -                         -
         Total          $53,982,678             245,472              5,848                     9,684
      Source: OIG analysis of job data from airport sponsors

Table E-2 indicates the 10 projects reviewed in our statistical sample to determine
if F&E job hours were supported. We found that of the 14,124 job hours for
$35,223,720 in contracts, all of the job hours were supported. The contractors and

15
   FAA classifies “primary” commercial service airports on the basis of their percentage of annual passenger boardings
   nationwide (e.g., large--1 percent or more; medium--between 0.25 and 1 percent; small--between .05 and .25
   percent; and nonhub--less than 0.05 percent, but more than 10,000 passengers). FAA categorizes all remaining
   airports as “nonprimary” (e.g., airports that receive between 2,500 and 10,000 passenger are classified as
   commercial service (CS); airports handling excess air traffic from primary airports are classified as relievers; and
   all remaining airports are classified as general aviation (GA).
16
   We did not obtain data with airport size in 2009. We examined data with airport size from June 2010.


E xh i b it E. V a lid at io n o f Jo b Ho u r s R ep o rt e d o n AR R A Aw ar d e d G r an t s
                                                                                                                     22


subcontractors provided certified payrolls, invoices, and accounting system reports
to reconcile to the job hours reported on a monthly basis to FAA. We reviewed job
hours reported from January 1, 2010, through March 31, 2010.

          Table E-2. Facilities and Equipment Contract Documentation
                          Contract             Job Hour              Job Hours                 Percent
        Airport            Award               Reported             Unsupported               Calculation
           1              $1,647,786                   0                                 -         -
           2               2,483,000                898        1
                                                                                         -         -
           3               1,984,755                  18                                 -         -
           4               2,620,000               2,770                                 -         -
           5               2,114,644                  32                                 -         -
          6              14,816,723                   3,891                              -            -
          7               1,835,612                   4,716                              -            -
          8               2,360,600                    899     1
                                                                                         -            -
          9               2,360,600                    899     1
                                                                                         -            -
          10              3,000,000                       0                              -            -
         Total          $35,223,720                  14,124                              -            -
     Source: OIG analysis of various F&E contractors’ monthly job reports to FAA
     Note:    Materiality was established by FAA and OIG of more than one FTE.
           1
             A scope limitation was that we are not able to validate the job hours for each of this contractor’s five task
             orders, so we calculated job hours based on FTEs reported for the quarter, which assumed an equal
             distribution of job hours among the task orders for this contractor.




E xh i b it E. V a lid at io n o f Jo b Ho u r s R ep o rt e d o n AR R A Aw ar d e d G r an t s
                                                                     23


EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                         Title

Scott Macey                                  Program Director

Betty Krier                                  Supervisory Economist

Petra Swartzlander                           Statistician

Stephen Jones                                Project Manager

Judy Nadel                                   Senior Auditor

Mackensie Ryan                               Senior Auditor

Rita Fox                                     Auditor

Robert Lee                                   Auditor

Andrea Nossaman                              Senior Writer

Audre Azuolas                                Writer-Editor




E xh i b it F . M ajo r Co n t rib u t o r s t o T his R ep o rt
                                                                                                           24


             APPENDIX. AGENCY COMMENTS


             U.S. Department of
                                                                    Memorandum
             Transportation
             Office of the Secretary
             of Transportation

Subject:     ACTION: Management Response to OIG Draft Report on                 Date:
             Recovery Act Job Data for FAA Programs

From         Lana Hurdle                                  Joel Szabat
             Deputy Assistant Secretary for Budget        Deputy Assistant Secretary for Policy and
              and Programs and Co-Chair of DOT              Co-Chair of DOT Recovery
              Recovery Act TIGER Team                       Act TIGER Team


             H. Clayton Foushee,
             FAA Director, Office of Audit and
              Evaluation (AAE-1)

       To:   Calvin L. Scovel
             Inspector General

             The Department’s efforts to implement its statutory responsibilities with regard to the
             American Recovery and Reconstruction Act of 2009 (Recovery Act) were enormously
             successful and fully complied with statutory direction and Office of Management and Budget
             (OMB) expectations as enumerated in its formal guidance and as recognized in our
             continuing interactions. It is easy to forget the considerable challenges in place at the time of
             the Recovery Act’s passage at the very beginning of this Administration. Expectations for
             action were very high while implementation time frames were extremely short. The
             Department’s management and staff quickly banded together in an unprecedented intermodal
             team to provide consistent leadership, direction and oversight of Recovery Act work across
             the Department. By working effectively together, the TIGER team was able to achieve and
             in some cases surpass expectations for implementing the Recovery Act.

             Overall, recipients reported estimates of over 6,000 jobs resulting from FAA’s Recovery Act
             efforts. These Americans would have likely been unemployed at some point during the
             duration of this Act, had it not been for these efforts. The Recovery Act was unique in its
             intent and methods to demonstrate its results to the American people. Specifically, we have
             never before been faced with efforts to enumerate estimates of the number of jobs generated
             as a result of legislation and to report them quickly to the public. This in itself was an
             enormous undertaking, fraught with complications that had to be worked out in real-time
             during implementation. In this regard we also believe that we met or exceeded expectations
             based on direct and continuous feedback from OMB.



             Ap p en d ix . Ag e n c y C o mm en t s
                                                                                            25


While we appreciate the OIG report’s recognition that FAA met the Recovery Act
requirement to provide reports on job data, which continued to improve over time, we have a
number of concerns about the OIG report. For example, we disagree that that there was a
“lack of adherence to Recovery Act reporting requirements,” by FAA or the Department.
Further, we also disagree that the OIG is unable to assess the extent of job creation, “because
of errors and inconsistencies in the collection and reporting of job information,” by the
Department. While we recognize that improvements are always possible, and we continue to
monitor, according to expectation, the jobs reporting by grant recipients, we find that a
number of the issues identified in the report are either incorrect, or inaccurately attribute
causality.

Finally, we note that FAA funds were fully-obligated in accord with timing requirements and
have been nearly completely expended. As a result, with the exception of any appropriate
continuing data reporting, its efforts with regard to the Recovery Act are essentially
complete.

Multiple Jobs Reporting Requirements Unique to DOT

DOT was the only Federal agency subject to multiple and somewhat inconsistent jobs
reporting requirements. Section 1512 reporting was a governmentwide requirement for
recipients to report employment directly to the Recovery Act Transparency Board. These
estimates went directly to centralized databases that offered the Department limited
accessibility for providing oversight. However, DOT’s efforts produced one of the most
comprehensive reporting sets in the government for its programs.

While Section 1512 was intended to offer a snapshot in time of employment attributable to
the Recovery Act, DOT was the only agency subject to Section 1201 reporting, which called
for a more cumulate approach in “job-years.” The OIG credits the FAA with meeting
statutory requirements for job reporting under the Recovery Act; however, it also takes an
expansive perspective calling for resource intensive data validation activities and inter-
reporting comparisons of limited additional marginal utility.

FAA Complied with Section 1512 Job Reporting Requirements

Without the benefit of significant additional resources for oversight, FAA effectively
complied with Section 1512 requirements. The methodology for Section 1512 job reporting
evolved as OMB issued seven successive guidance memoranda between June 2009 and April
2010. Many of these offered significant revisions from previous guidance with regard to
how and when jobs should be counted and further complicated reporting for fund recipients
and oversight for the Agencies.

We believe that the OIG report has several methodological errors in its discussion of Section
1512 jobs reporting. Foremost is its use of a comparison between 1512 reporting and
monthly cuff records kept by the FAA for 1201 reporting. As we enumerated in our April
exit meeting, the changing guidance from OMB would, by definition, make such comparison
vary over time and produce inconsistencies. Other matters of timing and divergent
methodology further limited the potential utility of such comparison. While based upon its


Ap p en d ix . Ag e n c y C o mm en t s
                                                                                             26


methodology, the OIG may have identified discrepancies between reports; it is an
overstatement to label these as “errors” in the report’s section heading. Further, as we
consider comparing 1512 and 1201 data to be an “apples and oranges” comparison that does
not provide a useful data check for validating 1512 reporting, the OIG report could better
recognize that FAA did, as required, perform data validation activities that were effective at
contributing to continued data accuracy improvements.

Finally, the OIG report should better recognize the governmentwide issues that occurred with
Section 1512 reporting. Much of the discrepancies identified were not necessarily the result
of FAA actions. For example, the report uses data from the beginning of the program
(December 2009) as its baseline for analyzing the effectiveness of FAA oversight of
recipients’ job reporting. This is misleading in that it does not take into account major
problems with Section 1512 reporting that GAO identified governmentwide, which
necessitated a major subsequent guidance revision from OMB.

FAA Complied with Section 1201 Job Reporting

The OIG report asserts that retrospective data verification was expected and remained
unfulfilled by FAA with regard to Section 1201 reporting. This is not correct, and was
discussed at length with the OIG in our April exit meeting. The OIG report establishes an
implied expectation for revising information, previously reported by recipients that were
subsequently found to be in error. As described, there is no mechanism to accomplish such
data revisions, with the exception of subsequent reporting correcting the data. In fact, the
OIG findings of airports subsequently reporting less hours than in the prior period is an
indication that FAA oversight was effective at identifying errors, and providing corrected
data. For example, FAA identified situations where a grant recipient has both Recovery Act
and non-Recovery Act work being conducted concurrently with the same contractors, and job
hours are apportioned for workers after the project is completed. In each of the examples
cited in the report where we were able to identify the grant recipient in question, the FAA
discovered that the initial entries were a result of clerical errors, which were, in many cases,
identified through its internal validation process.

Overall, we recognize that some aspects of Section 1201 reporting may be confusing and
during the Recovery Act implementation the Department took steps to add greater clarity.
For example, the Department added explanation in its 2010 report to the Congress on 1201
reporting with respect to how we calculated the total number of “on-project, Recovery Act-
funded jobs,” and we also specified “whether the jobs were created, sustained, or a
combination of both.” The 2010 report includes a brief discussion of how we gathered data
on direct on-site jobs, indirect jobs, and total employment. We also provided more detailed
information on how we calculate each category of jobs on our Recovery Act website in the
document, “Estimates of Jobs Created by Department of Transportation Programs under the
American Recovery and Reinvestment Act of 2009,”
http://www.dot.gov/recovery/docs/090609jobestimates.htm.

The Department has also fulfilled the expectation in Section 1201 for indirect job reporting.
This was a highly complex and difficult endeavor that took somewhat longer than expected,
and precluded its results being included in a timely report for 2010. However, the


Ap p en d ix . Ag e n c y C o mm en t s
                                                                                            27


Department completed its estimates of indirect jobs and total employment and has made
them available to the OIG. These estimates do take into account wage increases, contrary to
the statement included in the OIG report. Because our estimate of total employment is based
on Council of Economic Advisers guidelines, which are based on structural macroeconomic
models, the output does take wage increases into account as part of a structural
macroeconomic analysis of employment creation. It was clear to us, based upon the statutory
language and discussions with congressional staff, that the Congress intended for the
Department to estimate direct and indirect jobs in this manner.

The Department is pleased that subsequent to extensive discussions, the OIG has recognized
that Section 1201 reporting is not required for F&E expenditures using procurement contracts
as opposed to grants. We are, however, disappointed that the OIG report took the time and
effort to chide the FAA for not recognizing the opportunity to voluntarily report the 41 jobs
that occurred during the course of a year. It was only last month when an OIG report on a
separate issue took issue with the Department for “noncompliant” reporting because it
provided information that did not meet an OMB threshold. Now, this report takes issue with
FAA for compliance with reporting requirements and not providing data that is outside the
reporting requirements and immaterial to overall DOT or FAA results.

FAA Fulfilled Expectations for Job Reporting Data Verification

As described in the above sections the FAA conducted data verification activities that were
designed with input from data experts around the Department. Further, it performed
extensive oversight to ensure that recipients appropriately report their data. Neither the
statute nor the guidance offered by OMB envisioned FAA conducting the type of extensive
data auditing that has been performed by the OIG with regard to some of the airport
recipients, verifying specific hourly data employee by employee. FAA’s reporting was
afforded neither the resources nor the time to conduct such detailed activities. Instead, FAA
complied with OMB’s guidance, which calls upon Federal agencies to perform a limited data
quality review of the information submitted by grant recipients and notify recipients if there
are problems in the form of material omissions and significant reporting errors. The FAA
developed a process, reviewed by the OIG, which validated data and identified statistical
outliers. In the majority of cases in the sample evaluated by OIG, FAA’s validation process
identified the potential errors.

Even at the level of detail that the OIG reviewed source documentation, we note that the
differences identified are minimal and have no financial implications. Further, the difference
does not substantially change the overall results of how many jobs were created or sustained.
Based upon the OIG’s sample in Exhibits ‘D’ and ‘E’, net errors resulted in a 5% error in of
hours reported and a 5% net error of FTEs reported. A difference of 5% in December 2009
is not significant for estimates in the early portion of this reporting effort when it was well
recognized by many, including GAO, that OMB guidance needed to be revised.




Ap p en d ix . Ag e n c y C o mm en t s
                                                                                           28


RECOMMENDATIONS AND RESPONSES

Recommendation 1: Develop a process for new data that compares month to month
cumulative job data reported by airport sponsors, and contact sponsors to resolve
discrepancies when the current month shows fewer hours than the prior month.

FAA Response: Concur in part. As 100 percent of all Recovery Act grant projects at
airports are physically complete and 99 percent of the available funding has already been
expended, we anticipate few additional jobs to be reported by the recipients of the remaining
open grants. As a result there is limited additional utility to be gained by such evaluation.
To the extent that similar funds are provided in the future for economic recovery purposes,
with requirements for estimating jobs, FAA will ensure that full and appropriate oversight
mechanisms are implemented. However, in light of project completion, we ask that this
recommendation be closed.

Recommendation 2: Review and resolve discrepancies between Section 1512 job data
reported quarterly to the Recovery Board and job data reported monthly to FAA for the same
3-month period by contacting airport sponsors when discrepancies occur to determine if an
error in reporting took place.

FAA Response: Concur in part. As described in response to recommendation 1, FAA’s
Recovery Act projects at airports are 100 percent complete and 99 percent of the available
funding has been expended. We anticipate few additional jobs will be reported and FAA will
have little if any data to review moving forward. To the extent that similar funds are
provided in the future for economic recovery purposes, with requirements for estimating
jobs, FAA will ensure that full and appropriate oversight mechanisms are implemented.
However, in light of project completion, we ask that this recommendation be closed.

Recommendation 3: Issue an advisory notifying airport sponsors that they are to count jobs
created or sustained based on valid invoices.

FAA Response: Concur. The FAA will reiterate guidance to the remaining recipients of
open grants on the appropriate methodology for reporting jobs created or sustained. This will
be issued no later than January 20, 2012.

Recommendation 4: Submit to the Department job data from ARRA-funded Facilities and
Equipment projects for consideration in its Section 1201 reports to Congress.

FAA Response: Concur in Part. As recognized in the OIG report this information is not
required for 1201 reporting. Nonetheless, the FAA currently collects job hours from each
prime contractor participating on a Facilities and Equipment (F&E) Recovery Act project.
FAA will provide this information to the Department for consideration regarding whether it
should be included in future 1201 reports, despite the fact that it is outside the bounds of
statutory expectations. The Department will make a determination as to whether this
information should be included in the next 1201 report prior to issuance. That decision will
be apparent in the report, and the Department will subsequently consider this
recommendation closed.


Ap p en d ix . Ag e n c y C o mm en t s
                                                                                        29



Recommendation 5: OST should separately report indirect jobs in its upcoming ARRA
Section 1201 Reports and address data limitations in its job reports to increase ARRA
transparency and accountability.

Response: Concur. The Department will separately report indirect jobs in its upcoming
Recovery Act Section 1201 Reports. We will also provide a discussion of data limitations in
the report.




Ap p en d ix . Ag e n c y C o mm en t s
